Office of the Inspector General       Audit Report
                                  To the Director of Certification
                                  and Analysis




AGREED-UPON PROCEDURES
FOR GREEN-E PRICING
ACCREDITATION PROGRAM




Audit Team                                           Audit 2007-11012
Thomas M. Blair                                         June 14, 2007
David S. Shields
Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401



June 14, 2007


Ms. Jennifer Martin
Director of Certification and Analysis
Center for Resource Solutions
Presidio Building 97
Post Office Box 29512
San Francisco, California 94129

Dear Ms. Martin:

FINAL REPORT 2007-11012 – PERFORMANCE OF AGREED-UPON PROCEDURES TO
ASSIST IN DETERMINING TENNESSEE VALLEY AUTHORITY’S COMPLIANCE WITH THE
CENTER FOR RESOURCE SOLUTIONS’ GREEN-E PRICING ACCREDITATION PROGRAM

As requested, we have completed the procedures agreed upon by the Tennessee Valley
Authority (TVA) and the Center for Resource Solutions to assist you in determining TVA’s
compliance with the annual reporting requirements of the Green-e Pricing Accreditation
Program for the year ended December 31, 2006. Accordingly, you will find the following:

•   Enclosure 1 – Final Report
•   Enclosure 2 – TVA’s Green Power Switch Electricity Label
•   Enclosure 3 – Green-e Pricing Accreditation: Verification Process Audit Protocol
•   Enclosure 4 – TVA’s Green-e Pricing Accreditation Worksheets 1-9
•   Enclosure 5 – TVA’s Green-e Pricing Generator Registration Forms and Attestations

If you have any questions, please call Mike Blair, Senior Auditor, at (865) 632-6056 or
Lisa H. Hammer, Director (Acting), Financial and Operational Audits, at (865) 632-4731.

Sincerely,




Ben R. Wagner, CPA
Assistant Inspector General
 (Audits and Inspections)

TMB:SDB
Enclosures
cc: See page 2
Ms. Jennifer Martin
Page 2
June 14, 2007



cc (Enclosures):
     Kenneth R. Breeden, OCP 1F-NST
     Angela R. Hamlin, OCP 2F-NST
     Holly B. Jordan, OCP 2F-NST
     James D. Keiffer, OCP 2E-NST
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     James N. West, OCP 2F-NST
     OIG File No. 2007-11012
                                                                           ENCLOSURE 1
                                                                             Page 1 of 4

June 14, 2007



To the Green Power Pricing Director
Tennessee Valley Authority
and the Center for Resource Solutions


We have performed the procedures enumerated below, which were agreed to by the
Tennessee Valley Authority (TVA) and the Center for Resource Solutions (CRS), solely to
assist you with respect to determining TVA’s compliance with the annual reporting
requirements of the Center for Resource Solutions’ Green-e Renewable Energy
Certification Program for the year ended December 31, 2006. TVA’s renewable energy
initiative is referred to as “Green Power Switch.” TVA management is responsible for its
compliance with those requirements. This agreed-upon procedures engagement was
performed in accordance with standards established by the American Institute of Certified
Public Accountants. The sufficiency of the procedures is solely the responsibility of the
specified users of the report.

Consequently, we make no representation regarding the sufficiency of the procedures
described below either for the purpose for which this report has been requested or for any
other purpose.

1. We obtained a copy of the internally generated report (Worksheet 1 - Details of
   Purchases) that contained the details of specific generation (MWh Generated, Date
   Generated, and Generating Facility). We performed the following procedures:

   •   Compared details for each generator listed on Worksheet 1 to corresponding
       information on completed and signed copies of the “Green-e Renewable Generator
       Registration Form and Attestation” (GRGRF), noting agreement of generator
       name, location, fuel type, and install date.

   •   For every generator of renewable energy listed on Worksheet 1, verified the install
       date listed on Worksheet 1 is on or after January 1, 2000.

   •   Verified the generator fuel type reported on the GRGRF matches that reported on
       Worksheet 1.

   •   Verified the generator fuel type reported on the GRGRF is an eligible renewable
       fuel. For TVA, eligible renewable fuels are solar, wind, and methane from
       wastewater.

   •   Verified all generation dates listed on Worksheet 1 were within the period July 1,
       2005, through March 31, 2007.

   •   Compared each transaction listed on Worksheet 1 to internal TVA spreadsheet
       documents containing the meter readings for the facilities and noted agreement of
       energy produced and generation dates. We also obtained copies of the most
       recent meter certifications. See Table 1 for certification dates.
                                                                        ENCLOSURE 1
                                                                          Page 2 of 4


          Generator Facility Name or        Renewable              Meter
             Wholesale Supplier             Fuel Type       Certification Date

       Adventure Science Museum                                 04/23/2003
                                               Solar
       Dollywood Tram C                        Solar            12/07/2005

       Dollywood Tram D/E                      Solar            03/28/2006

       Gibson County High School               Solar            09/04/2003

       Ijams Nature Center                     Solar            03/28/2006

       Cocke County High School                Solar            12/15/2003

       Duffield Primary School                 Solar            03/11/2004

       American Museum of
                                               Solar            03/09/2001
       Science and Energy
       Lover’s Lane Soccer Complex             Solar            11/02/2004

       Finley Stadium                          Solar            03/17/2005

       Florence Water Treatment Plant          Solar            05/05/2006

       Sci-Quest                               Solar            04/03/2001

       University of Mississippi               Solar            09/20/2002

       Mississippi State University            Solar            12/18/2002

       Buffalo Mountain                        Wind             10/12/2000

       BRIDGES Center                          Solar            09/09/2004

       Morgan County                           Solar            07/28/2005
       Vocational/Technical School
       Windrock (Primary)                      Wind             10/01/2004

       Windrock (Back-up)                      Wind             10/01/2004

                                                                         Table 1


2. We obtained a copy of the internally generated report (Worksheet 2 - Verification of
   Eligible Renewables) from TVA that contained the MWh purchased that are eligible for
   and sold in this Reporting Year (RY) by eligible fuel type. By referencing to
   Worksheet 1, we recalculated each row of columns 2C and 2D and noted as an
                                                                          ENCLOSURE 1
                                                                            Page 3 of 4


   exception if they did not total the same amount of MWh listed on Worksheet 1. We
   also, by referencing to Worksheet 9, recalculated each row of column 2E and noted as
   an exception if they did not total the same amount of MWh listed on Worksheet 9. We
   then tested the mathematical accuracy of the “Total Sales this RY Generated from” in
   column 2K of Worksheet 2. We also tested the mathematical accuracy of the “Leftover
   MWh Eligible for Green-e Sales Next RY” in column 2M of Worksheet 2. We noted no
   exceptions.

3. We obtained a copy of the internally generated report (Worksheet 3 - Verification of
   Green-e Certified Sales) summarizing generation for the year ending December 31,
   2006. We performed the following procedures and noted no exceptions:

   •   Compared the number of MWh sold to residential and non-residential customers as
       noted on Worksheet 3, Table 3.1, to the Power Billing invoices generated by TVA.

   •   Obtained the spreadsheet generated by TVA’s Marketing and Customer Service,
       identifying sales between residential and non-residential, by MWh and number of
       customers for each state. We also obtained the Power Billing data concerning the
       number of customers. We reviewed the documentation and verified the MWhs and
       number of customers listed on Table 3.2 of Worksheet 3. We recalculated the
       quarterly generation of MWhs for each generating facility as reported on
       Worksheet 3, Table 3.3, from generation data.

   •   Verified the mathematical accuracy of Worksheet 3, Tables 1, 2, 3, and 4 as noted
       on those pages.

4. We obtained a copy of the internally generated report (Worksheet 4 - Verification of
   Product Content Label) summarizing retail sales of Green Power for the RY. This
   worksheet was not applicable.

5. We obtained a copy of the internally generated report (Worksheet 5 - Balance of
   Supply and Demand) which details total supply and sales for products sold during
   RY 2006. We performed the following procedures and noted no exceptions:

   •   Verified the renewable energy resources listed in Worksheet 5, Column A, are
       eligible renewable resources.

   •   Verified the “Net MWh Purchased or Generated by Participant for Green-e Sales in
       this RY” by “Eligible Renewable Fuel Type” by agreeing the amounts to the total
       eligible MWhs in Worksheet 2, Column 2C, 2D, 2I, and 2J.

   •   Verified the “Total MWh of Specific Purchased/Generation by Purchaser Sold in
       Wholesale Sales” by agreeing the amounts to the total eligible MWhs in
       Worksheet 3, Column 3N.

   •   Verified the mathematical accuracy of the “Difference between Supply and
       Demand” listed on Worksheet 5, Column 5F.

   •   Verified the mathematical accuracy of the total on Worksheet 5, Columns 5C, 5E,
       and 5F.
                                                                           ENCLOSURE 1
                                                                             Page 4 of 4


6. We obtained a copy of the internally generated report (Worksheet 6 - Verification of
   Notification). This worksheet was not applicable.

7. We obtained a copy of the internally generated report (Worksheet 7 - Verification of
   Emissions of Non-Green-e Eligible Generation). This worksheet was not applicable.

8. We obtained a copy of the internally generated report (Worksheet 8 - Verification of
   New Renewable Facilities). This worksheet was not applicable.

9. We obtained a copy of the internally generated document (Worksheet 9 - Sales of
   Green-e Certified Products by Distributors Other than Participant) detailing the sales of
   Green-e certified products by distributors other than participants. We performed the
   following procedures and noted no exceptions:

   •   Verified sales for each distributor reported on Worksheet 9, Column 9B, by
       agreeing the RY sales distributor power invoices.

   •   Verified the mathematical accuracy of the total sales as noted in Worksheet 9,
       Column 9F.

We reviewed the minutes of the TVA Board of Directors (Board) meeting for July 28, 2006,
and the Green Power Switch Premium Evaluation Report. We agreed TVA’s premium for
the Green Power Switch of $4.00/150 kWh block to the Green Power Switch Premium
Evaluation Report. However, we did not perform a Cost of Service Study, and
accordingly, we make no comment as to the methods or the validity of the underlying
analyses used to determine the $4.00 premium. Please note the TVA Act gives the Board
sole responsibility for establishing the rates that TVA charges for power and authorizes the
Board to include in power contracts the terms and conditions it judges necessary or
desirable for carrying out the purposes of the Act.

We were not engaged to, and did not, perform an examination, the objective of which
would be the expression of an opinion on the compliance of the annual reporting
requirements of the Center for Resource Solutions’ Green-e Renewable Energy
Certification Program. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that
would have been reported to you.

This report is intended solely for the information and use of TVA and the Center for
Resource Solutions and is not intended to be and should not be used by anyone other
than these specified parties.




Ben R. Wagner, CPA
Assistant Inspector General
 (Audits and Inspections)
ENCLOSURE 2
                                                                                  ENCLOSURE 3


Green-e Renewable
Energy Certification
Program




Verification
Process
Audit
Protocol




                       Center for Resource Solutions: Presidio Building 97 / P.O. Box 29512
                        San Francisco, CA 94129 tel: 415-561-2100 fax: 415-561-2105
                                                                                                                                         ENCLOSURE 3




Table of Contents

I.              OVERVIEW................................................................................................ 1
      A.        Objectives of Process Audit Protocol ................................................................................. 1
      B.        Summary Requirements..................................................................................................... 2
II.             GENERAL PROCESS AUDIT PROTOCOL PROVISIONS....................... 4
      A.        Scope of Process Audit Protocol ........................................................................................ 4
      B.        Form of Engagement and Report....................................................................................... 5
      C.        Use of Renewable Energy Certificates in Electricity Products ........................................... 6
      D.        Scope of Testing................................................................................................................. 6
      E.        Period Covered by Reporting Requirements...................................................................... 7
      F.        Date the Annual Verification Submission Is Due to the Center for Resource Solutions .... 7
      G.        Other Information to be Submitted to the Center for Resource Solutions with the Annual
                Verification Submission ...................................................................................................... 7
      H.        Use of Sampling Techniques.............................................................................................. 8
      I.        Tests of Attributes............................................................................................................... 9
      J.        Principal Testing to Be Performed...................................................................................... 9
      K.        Applying General Procedures to Specific Cases................................................................ 9
III.            SPECIFIC PROCESS AUDIT REQUIREMENTS FOR PARTICIPANTS. 10
      A.        Verification of Supply........................................................................................................ 11
           1.     Objectives and guidelines ............................................................................................ 11
           2.     Verification of Purchases ............................................................................................. 11
           3.     Verification of Eligible Renewables .............................................................................. 15
      B.        Verification of Sales.......................................................................................................... 16
           1.     Retail Sales (Residential and Non-residential) ............................................................ 16
           2.     Wholesale Sales........................................................................................................... 18
      C.        Verification of Product Resource Mix ............................................................................... 18
      D.        Balance of Supply and Sales............................................................................................ 19
      E.        Verification of Notifications ............................................................................................... 19
           1.     Cases 1, 2, 4 and 5 ...................................................................................................... 19
           2.     Case 3 and Case 6 ...................................................................................................... 20
      F.        Non-Renewable Emissions .............................................................................................. 20
      G.        New Renewables.............................................................................................................. 21
      H.        Sales of Green-e Certified Products by Distributors......................................................... 22
      I.        Substantiation of Marketing Claims and Non-Nuclear Purchases ................................... 22
      J.        Cost-Based Rates ............................................................................................................ 22
IV.             ACCOUNTANT’S QUALIFICATIONS ..................................................... 23
V.              HOW TO GET HELP ............................................................................... 23

APPENDIX A:                          GLOSSARY OF TERMS....................................................... 24
APPENDIX B:                          DESCRIPTION OF DOCUMENT TITLES AND OTHER
                                     INFORMATION NEEDED BY THE ACCOUNTANT ............. 27
APPENDIX C:                          EXCERPT  FROM   AN        EXAMPLE                AGREED-UPON
                                     PROCEDURES REPORT ..................................................... 30
APPENDIX D:                          MAXIMUM EMISSION RATES BY STATE........................... 32



                                                                                                                                          Page i
                                                                                              ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol




I.        OVERVIEW
This document addresses the verification reporting requirements for the Green-e
Renewable Energy Certification Program (Green-e Program). The term
               1
“Participants” as used in this document refers to retail and wholesale suppliers
of renewable energy products participating in the Green-e Program. This
document describes how to conduct the independent process audit that the
Green-e Program requires as part of its annual verification of certified products.
The process audit covers all sales of Green-e certified renewable energy
products in a particular calendar year, referred to as the Reporting Year (RY).
The process audit should be documented in an Agreed-Upon Procedures
Report.2 This report is must be received at Center for Resource Solutions (CRS)
no later than June 14, in the year following the RY, and the electronic versions of
the completed Green-e Program Verification Worksheets (Worksheets) must
be emailed to alex@resource-solutions.org no later than June 14, in the year
following the RY.

The verification process is as follows.
   x Participants must complete the Worksheets and attestations, which are
      described in the Green-e Verification Checklist (Checklist) and also in
      the Annual Process Audit Instructions for Participants in the Green-e
      Renewable Energy Certification Program, and provide these and
      supporting documentation to an independent auditor or certified internal
      auditor (Auditor).
      x   The Auditor then follows the Verification Process Audit Protocol (this
          document) to verify the accuracy of the information provided by the
          Participant.
      x   The Auditor’s report, the Participant’s completed Worksheets and
          attestations, and other supporting documents identified in the Checklist
          are returned to CRS for final review and acceptance.


A.    Objectives of Process Audit Protocol
The primary objectives of this process audit protocol are:
   x to state the Center for Resource Solutions (CRS) assurance requirements
      relating to the Green-e program; and
      x   to provide guidance to Participants and their Auditors on how to satisfy
          and report on these assurance requirements.




1
    Terms defined in Appendix A are indicated in bold type the first time they appear.
2
    Documents defined in Appendix B are indicated in bold italic type the first time they appear.


                                                                                             Page 1
                                                                                     ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


This protocol addresses three different types of renewable energy product
certifications offered by the Green-e Program:
   1. Renewable Energy Certificates (RECs). RECs are renewable electricity
        attributes sold independently of electricity.
   2. Utility Green Pricing Electricity products offered by utilities in electricity
      markets not open to retail competition.
   3. Competitive Renewable Electricity products offered in competitive
      electricity markets by electricity service providers


B.     Summary Requirements
Under Green-e, the Participant is required to reconcile renewable electricity
and/or REC (collectively referred to as “renewable MWh” in this document)
purchases and/or generation with renewable MWh sales to verify that they have
purchased and/or generated enough renewable MWh in quantity and type to
meet its customer demand for each specific power product.

The Green-e Program requires that the renewable energy products sold by
Participants meet a variety of criteria. These criteria address resource supply
and sales, eligible program types, vintage of renewable MWh, emissions,
product marketing, and customer disclosure. Each renewable energy product
offered by the Participant must be audited. The purpose of this process audit
protocol is to verify the following criteria, summarized in the list below. The
specific information to be provided by the Participant and the tests to be
performed by the Auditor are described in detail in Section III.

   1. Supply – the Participant generated or acquired “eligible renewable
      resources”, and the purchases or generation of eligible renewables
      reported by the Participant are accurate.
   2. Sales – sales of the product are reported accurately.
   3. Balance of supply and sales – purchases or generation of eligible
      renewables were sufficient in amount and type to meet program sales.
   4. The eligible renewables represented in the product were not used for
      compliance with any procurement, renewable portfolio standard (RPS)
      or other renewable energy requirement of local, state or federal
      government. The sole exception is a facility that is generating renewable
      energy in excess of the government mandate or other legal contract, in
      which case that excess (either renewable electricity or the RECs
      associated with the renewable electricity) may be used in a Green-e
      certified product, as provided for in the Green-e Renewable Energy
      Certification Program National Standard (National Standard);




                                                                                     Page 2
                                                                                     ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


   5. The Participant has accurately reported the number and type/class of
      customers purchasing the product, and the volume of eligible renewables
      sold to those customers.
   6. The Green-e certified product only contained MWh that were generated in
      the calendar year in which the product was sold, the first three months of
      the following calendar year, and/or the last 6 months of the prior calendar
      year.
   7. Participants display a Product Content Label in all product-specific
      written and Web-published promotional materials for residential products.
   8. Information provided to customers on the Product Content Label regarding
      the generation types from which the renewable MWh were derived is
      accurate.
   9. All the attributes of the renewable energy (including CO2 benefits),
      including any emission reduction credits or emission allowances allocated
      to or otherwise received by the generator for the generation output, were
      aggregated and not sold off separately, and were transferred to the
      ultimate end use customer purchasing the renewable MWh, or retired on
      the customer’s behalf. In the case that one or more wholesalers were
      involved in the transactions from generator to end user, ensure by
      reporting agreements and other contractual obligations that the attributes
      were transferred to the end user.
   10. The generator and/or vendor of the renewable energy have no knowledge
       of double counting, double selling or double claiming of the renewable
       MWh, and the renewable attributes of the generation were sold only once.

Criteria Applicable only for Products being Wholly or Partially Supplied by RECs:
    11. The electrical energy associated with RECs was delivered into the electric
        power system or consumed at the site of generation by a grid-connected
        end-user of electricity and was not marketed or otherwise represented as
        renewable energy.
   12. The public utilities commissions (PUC), departments of environment,
       municipal utility governing boards, or other appropriate regulatory bodies
       in the state where the electricity associated with a REC was sold and the
       state where the electricity associated with a REC was generated were
       given notification that the environmental attributes of the electricity were
       sold as a REC, and to help ensure no use of mandated renewables.

Criteria Applicable only for Green Pricing and Competitive Electricity Products:
    13. For percent-of-use (blended) electricity products, the program assumes
        that the Participant supplies the non-eligible portion of the customer’s
        usage with system power. If the Participant makes any specific purchases
        of non-eligible power for the purpose of supplying only the customers
        buying the certified product, the Participant must document that no


                                                                                     Page 3
                                                                                     ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


         specific purchases of nuclear power were made, and submit signed copies
         of the “Green-e Attestation of Non-Eligible Electricity Purchase and
         Emissions Reporting” (“Non-Eligible Purchase Attestation”), or
         alternatively a tracking system report, for each wholesale supplier or
         generator with whom the Participant had a contract for the non-eligible
         resource type. This is in order to substantiate that the weighted average
         emissions from these specific purchases or generation are no greater than
         the emissions from the system mix.
      14. If the Participant is selling a block product, the product provides at a
          minimum 100 kWh of new renewable supply per month for each
          customer enrolled in the program.
      15. If the Participant is selling a percent of use (blended) product, it provides a
          minimum of 25% of the customer’s load with new renewable generation.
      16. A Participant discloses to customers a “projected” fuel mix on its Product
          Content Label in the beginning of the year. At the end of the calendar year,
          the Participant must prepare a historic or Annual Product Content Label
          showing the fuel mix for actual purchases or generation of renewable
          MWh that went into certified products. Thus, the label may change
          throughout the year, as actual supply and demand become known. The
          Participant must validate these claims at the end of the year through an
          independent process audit – the subject of this protocol.

Criteria Applicable only for Green Pricing Products:
    17. The price offered for the certified electricity product is based on direct
        program costs and related overhead, and does not reflect any shifting of
        Green Pricing program costs to non-Participants.

Criteria Applicable only for Competitive Electricity Products:
    18. If Participant is selling a competitive electricity product that is partially
        supplied by renewables from a facility(ies) that was operational prior to
        January 1, 1997 and this product was first Green-e certified prior to
        January 1, 2006, then the proportion of new renewables in the product
        must exceed the Green-e requirements for minimum new renewable
        content by state shown in Section III.G.


II.      GENERAL PROCESS AUDIT PROTOCOL PROVISIONS
A.      Scope of Process Audit Protocol
The process audit protocol addressed in this document is for the annual
verification reporting requirements of the Green-e Renewable Energy
Certification Program. This guidance is to be used by Participants and their
Auditors. CRS acknowledges that the procedures put forward in this document



                                                                                     Page 4
                                                                                     ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


are sufficient when performed in their entirety. Completion of the process audit
protocol as described in this document is not, however, sufficient for verification
of the Customer Disclosure Requirements, which are verified through a separate
process.


B.      Form of Engagement and Report
Participant must engage an independent certified public accountant to perform
this process audit engagement and report on agreed-upon procedures in
accordance with the American Institute of Certified Public Accountants (AICPA)
Statements on Standards for Attestation Engagements, Section 600, Agreed
Upon Procedures Engagements or under Statements on Auditing Standards,
Section 622, Engagements to Apply Agreed-Upon Procedures to Specified
Elements, Accounts, or Items of a Financial Statement. Excerpts of a sample
report are included with these instructions in Appendix B. Alternatively, the
Participants may elect to have their internal audit department (or the internal
audit department of an affiliated company) perform the procedures enumerated
in Section III, provided that the individual accountant signing the report for the
internal audit department is a Certified Internal Auditor in good standing with the
Institute of Internal Auditors (IIA). The term “accountant” hereinafter refers to an
independent public accountant or certified internal auditor.

The form of the report should specify the procedures performed and findings in a
manner similar to reporting under Section AT600 or AU622 of the AICPA’s
attestation or auditing standards, respectively. The accountant should make
reasonable efforts to ensure that the report is prepared in accordance with these
minimum standards. In accordance with paragraph .41 of AICPA Section AU622,

    The accountant need not perform procedures beyond the agreed-upon
    procedures. However, if, in connection with the application of agreed-
    upon procedures, matters come to the accountant’s attention by other
    means that significantly contradict the basis of accounting for the
    specified elements, accounts, or items of a financial statement referred
    to in the accountant’s report, the accountant should include this matter in
    his or her report. For example, if, in connection with the application of
    agreed-upon procedures, the accountant becomes aware of a potentially
    material adjustment to that account by means other than performance of
    the agreed-upon procedures, the accountant should include this matter
    in his or her report.

The Participant may elect a higher level of assurance with regard to its reporting
requirements conducted by an accountant. CRS welcomes attestation or similar
audit-level assurance with regard to the information, forms and assertions
described in this protocol. Such alternative reporting should also be discussed
with CRS staff prior to submission of the report.



                                                                                     Page 5
                                                                                           ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


C.      Use of Renewable Energy Certificates in Electricity Products
For electricity products, for purposes of participating in Green-e, eligible
renewable generation may be characterized as having a commodity electricity
attribute and a renewable attribute, sometimes referred to as a “greenness”
attribute. Hence, for each kilowatt hour (kWh) of eligible renewable electricity
generated, a corresponding kWh of renewable attribute is generated. This
renewable attribute may be separately documented from the commodity
electricity through the use of a certificate or a “ticket”, which the generator may
then sell or broker separately from the commodity electricity, possibly to different
parties. Once the renewable attribute of eligible generation has been separated
from the corresponding commodity electricity, the commodity electricity can no
longer be claimed as qualifying renewable generation under Green-e. However,
the certificate or ticket may be used to substantiate an eligible renewable energy
                                                            3
purchase, provided the conditions below are satisfied.

    1. The certificate or ticket must represent electricity that is from an Eligible
       Renewable Generator located within the same defined geographic
       sourcing boundary or power pool as the customer, or the Eligible
       Renewable Generator must deliver the amount of electricity represented
       by the certificate to the defined geographic sourcing boundary or power
       pool in which the Retail Product that contains the certificate or ticket is
       sold.
    2. Certificates or tickets must be documented using the same attestation
       practices that apply to purchases from a wholesale provider or generator.
    3. Eligible certificates or tickets may be traded without restriction at the
       wholesale level among generators, wholesalers, and providers and remain
       eligible under the Green-e program when matched with commodity
       electricity sold to an end-use customer. However, certificates that are sold
       to end-use customers without matching commodity electricity are not
       eligible under Green-e electricity certification (i.e., as Competitive
       Electricity Products or Utility Green Pricing Products). To qualify as a
       specific purchase under Green-e electricity certification, a Participant must
       purchase certificates AND purchase and deliver a like amount of
       commodity electricity.


D.     Scope of Testing
The management of the Participant will need to make certain decisions regarding
the scope of testing. This is due to the guidance involving agreed-upon

3
 Once the eligible certificate or ticket is sold separately from the commodity electricity, the
commodity electricity becomes generic or system mix power. The commodity electricity may not
be sold as a specific renewable purchase unless an eligible certificate or ticket matches it.
Further, each kWh represented on an eligible certificate or ticket may be sold or associated with
electricity sales to only one end-use customer.


                                                                                           Page 6
                                                                                             ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


procedures conducted in accordance with the AICPA, at Section AT600 or
Section AU622, which results in an accountant’s report that is in the form of
procedures and findings and not in the form of an opinion or negative assurance.
Additionally, the specified users of the agreed-upon procedures report are
responsible for the sufficiency (nature, timing and extent) of the agreed-upon
procedures, and assume the risk that such procedures might be insufficient for
their purpose or that they might misunderstand or inappropriately use findings
properly reported by the accountants.

CRS has attempted to provide an assurance protocol that requires limited
decisions necessary from the management of the Participant or from the
accountant; however, in those situations where it is necessary, the assurance
protocol clearly indicates when scope decisions are necessary and who should
make those decisions.


E.     Period Covered by Reporting Requirements
The agreed-upon procedures reports must be prepared for the Green-e Program
on a calendar year basis. For those companies that began participating in the
Green-e Program in the middle of a Reporting Year (RY), the reports should be
prepared for the period starting on the date the Participant signed their Green-e
contract and ending on December 31, of the RY, or alternatively for the full RY
given permission of the Green-e Program staff.


F.      Date the Annual Verification Submission Is Due to the Center for
        Resource Solutions
The Agreed-Upon Procedures Report must be submitted to CRS and received no
later than June 14 of the year following the Reporting Year being reported. The
report must be accompanied by all documents listed on the Checklist. The
electronic version of the Worksheets must be emailed to alex@resource-
solutions.org and received no later than June 14 of the year following the
Reporting Year being reported.


G.     Other Information to be Submitted to the Center for Resource
       Solutions with the Annual Verification Submission
The following reports and information should accompany the accountant’s
“Agreed Upon Procedures Report:”
   x copies of the Annual Product Content Label for each retail product
                                           4
       certified during the calendar year;
      x   copies of Green-e Accountant Worksheets 1-9, both in hardcopy and in
          Microsoft Excel™ electronic format;

4
    The Annual Product Content Label is not required for commercial or wholesale products.


                                                                                             Page 7
                                                                                     ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


   x   for each generator or wholesale provider from which specific purchases of
       renewable MWh were claimed or, if participant owns the generator, from
       which generation was used to supply a Green-e certified product,
       Participant must provide a “Green-e Renewable Generator Registration
       Form and Attestation” (“Generator Attestation”) and “Green-e
       Renewable Attestation from Wholesale Provider of Electricity or
       RECs” (“Wholesale Attestation”). If the wholesale provider is providing a
       Green-e certified wholesale product to Participant, the Participant does not
       need to include a “Generator Attestation”, but only the “Wholesale
       Attestation” for the specific purchase. A report from a regional renewable
       energy tracking system may be submitted instead of generator or
       wholesale attestations. For generators sized 10 kW or less, a “Green-e
       Attestation for Renewable Energy Certificates (RECs) Delivered From
       a Small Solar/Wind/Hydro Electric Power Facility” (“Small Generator
       Attestation”) should be submitted instead of the “Generator Attestation”;
   x   Emissions information for any specific purchases or generation of non-
       eligible resources if the “Generator Attestation”, “Wholesale Attestation”,
       or tracking system report does not provide complete information on
       emissions for all specific purchases or generation. Appendix D contains a
       state-by-state list of emissions limits for reference;
   x   copies of notifications to utilities and state regulators, where required;
   x   documentation supporting marketing claims, if any, as indicated on the
       “Green-e Verification Checklist;”
   x   written explanation from the Participant for any exceptions in the
       Worksheets; and
   x   completed “Green-e Attestation from Program Participant” for the
       Participant company for whom this process audit is being conducted.
   x   The report must also contain an original signature of the accountant
       performing the audit on his or her company letterhead. Photocopies or
       facsimile copies are not accepted.


H.      Use of Sampling Techniques
The accountant may use sampling techniques to test the attributes of the
Participant’s data. Because sampling is the application of a procedure to less
than 100% of the population, certain sampling criteria have been established by
CRS to be followed in the performance of the agreed-upon procedures.
Additionally, the Participant and the accountant will need to make certain
decisions and judgments in the process of establishing the appropriate sample
size, following the guidance set forth in the AICPA AU Section 350, Audit
Sampling. If the accountant chooses not to use sampling techniques, then
testing of 100% of the population must be performed.



                                                                                     Page 8
                                                                                     ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol




When sampling is used, the sample size is to be determined using a confidence
level of 90%, a tolerable deviation of 10%, and an expected deviation rate that is
equal to or less than 3%. The Participant and accountant will need to make an
assessment of the control environment of the Participant in determining the
expected deviation rate. Additionally, the Participant will need to ascertain the
population size (estimates are acceptable). Once these parameters have been
determined, the accountant should determine the sample size to be tested by
utilizing a statistical sampling program. All parameters used and the sample size
are to be described in the report. The sample selection should be made on a
random basis with a random number generator or similar process as the
preferred approach. CRS will allow other sample selection methods (e.g.,
systematic) provided the resultant selection is ultimately random in nature (e.g.,
each member of the population has an equal chance of being selected). In any
event, no more than 50% of the selected transactions may relate to any one
month unless more than 50% of the population relates to the same month (in
which case this should be disclosed in the report).


I.      Tests of Attributes
When performing the procedures described in this protocol, it is important that
the accountant understand the objectives and nature of the tests to be performed.
Each of the procedures addressed in Section III is designed to test specific
attributes, and the objectives of the procedures are noted at the beginning of
each testing section.


J.     Principal Testing to Be Performed
The principal testing to be performed will be reading, vouching, comparing and
recalculating information provided to the accountant by the Participant. See
Section III for specific tests to be performed.


K.      Applying General Procedures to Specific Cases
This document provides guidance and specific examples of the procedures to be
performed in providing CRS with assurances as to the accuracy and
completeness of Worksheets 1-9 that are to be completed by the Participants.
The nature and complexity of supply and sale transactions differ among
companies participating in the Green-e Program. Additionally, accounting
systems and transaction data structures of each of the Participants will vary
along with the types of information and reports internally available. Accordingly,
the following requirements enumerated in this section are not intended to be all
inclusive, but rather represent the minimum standards to be applied in performing
tests of the documentation trail associated with the information submitted to CRS
by the Participants. Judgment will need to be applied in order to execute the
agreed-upon procedures engagement under each specific circumstance.


                                                                                     Page 9
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol




III.       SPECIFIC PROCESS AUDIT REQUIREMENTS FOR
           PARTICIPANTS
Section III directs the Auditor to perform a number of procedures for the following
purposes:
   x Test electricity supply;
       x   Verify eligibility of the renewable MWh in products;
       x   Test electricity sales;
       x   Verify Product Content Label;
       x   Verify balance of supply and sales;
       x   Verify notifications;
       x   Verify emissions from non-eligible resources;
       x   Verify completeness of Marketing Compliance response submittal;
       x   Substantiate that Participant made no specific purchases and/or
           generation of nuclear energy for the Green-e certified product; and
       x   Verify completeness of verification submittal

Additional procedures for certified Green Pricing and Competitive Electricity
products:
   x Verify emissions from non-eligible resources; and
       x   Verify sales by distribution utilities

Additional procedures for certified Competitive Electricity products:
  x Verify use of new renewables

Additional procedures for certified Green Pricing products:
  x Verify that product price rates are cost-based rates

Note: Certain of the Worksheets will not be applicable to certain Participants.
Ensure that at a minimum, all worksheets have been filled in with Reporting Year,
Date Completed, Company Name and Name of Person Completing Form. In the
case that the worksheet is not applicable, ensure that ‘Not Applicable’ has been
written in the first row of the first table in the worksheet. Note any exceptions.
Also note if review of documents provided by Participant and of this Protocol lead
you to believe that a certain worksheet(s) is applicable to the Participant’s sales
of a Green-e certified product despite being filled in as ‘Not Applicable.’




                                                                                     Page 10
                                                                                       ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


A.       Verification of Supply

1.      Objectives and guidelines
The objectives of performing these procedures are to provide assurances relating
to the following:
    x The quantity of renewable power and certificates purchased and/or
        generated, sold, or self-consumed was reported accurately;
     x   The generation facility(ies) supplying renewable MWh for the Green-e
         certified product(s) are Green-e eligible renewable facilities, as defined in
         the National Standard;
     x   The fuel mix of electricity claimed on the Annual Product Content Label is
         accurately categorized; and
     x   All resources claimed as Green-e eligible began generating electricity or
                          5                           6
         were repowered on or after January 1, 1997.

Vintage of Eligible Resources for Green-e Certification
The following language describes the vintage of renewable generation that is
eligible to be included in Green-e certified products sold in each reporting year:

A Green-e certified renewable energy product may only include RECs or
renewable electricity generated in the calendar year in which the product is sold,
the first three months of the following calendar year, or the last 6 months of the
                     7
prior calendar year. For example, for Reporting Year 2006 generation must
have taken place between July 1, 2005 and March 31, 2007 in order to be
eligible.


2.     Verification of Purchases
Obtain a completed copy of Worksheet 1 (for descriptions of the individual
worksheets, see Appendix B) from the Participant, containing the detail of the
annual specific purchases and/or generation used to supply a Green-e certified
product. In addition, if the Participant sold any Green-e certified products in the
year prior the current Reporting Year, obtain completed verification documents
from that prior reporting year.

a. For every transaction listed on Worksheet 1, the Participant must have
   documentation demonstrating the transfer of ownership of renewable MWh
   from generator to Participant. If the Participant is the generator, Participant
   must still supply attestations for the amount of generation they are claiming
   toward sales this RY.
5
  For more information on repowering, see Section II.E of the National Standard
6
  With the exception noted in Section I.B.18.
7
  Date of REC generation is the day/month that the MWh associated with the REC were
generated.


                                                                                      Page 11
                                                                                         ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


            i.   If the Participant purchased directly from the renewable generator
                 or used output from a generation facility it owns, it must have on file:
                      x A completed and signed “Generator Attestation;” or
                      x A report from a renewable energy tracking system
                        substantiating the transfer of RECs to the Participant.
            ii. If the Participant purchased renewable MWh in the form of a
                Green-e certified wholesale product, Participant must have on file:
                      x A completed and signed “Wholesale Attestation;” or
                      x A report from a renewable energy tracking system
                        substantiating the transfer of RECs to the Participant.
            iii. If the Participant purchased renewable MWh in the form of a non-
                 Green-e certified wholesale product, the Participant must have on
                 file either:
                      x A report from a renewable energy tracking system
                        substantiating the transfer of RECs to the Participant.
                      or:
                      x A completed and signed “Generator Attestation;” and
                      x A completed and signed “Wholesale Attestation.”
            iv. If the Participant purchased and/or self-generated RECs from a
                renewable energy generator with a nameplate capacity less than or
                equal to 10 kW, Participant must have on file:
                      x A completed and signed “Small Generator Attestation”.
                            8
b. For every generator that is identified on Worksheet 1, the relevant
   “Generator Attestation,” “Wholesale Attestation,” “Small Generator
   Attestation” or tracking system report should report the renewable fuel type of
   the facility.
            i.   Examine the fuel type on Worksheet 1 and verify that it matches the
                 fuel type reported on the relevant attestation or tracking system
                 report. Note any exceptions.
            ii. Examine the fuel type of each generator listed on Worksheet 1 and
                verify that it is an eligible renewable resource. Note any
                exceptions. Eligible renewable fuel types are listed in the National
                Standard.
c.   Report as an exception any facilities which are identified on Worksheet 1 but
     whose operational date or repowering date as recorded on the relevant

8
 On Worksheet 1, participants are allowed to list aggregated generation from different small
generators of the same resource type in the same rows, provided that the generator is supplying
a “Small Generator Attestation.”


                                                                                        Page 12
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


     attestation(s) or tracking system report is before January 1, 1997. If such
     facilities are reported, check the “Notes” section of the Checklist and report
     whether or not the facility has been grandfathered to supply eligible new
     renewable resources by Green-e.
d. If the Participant sold Green-e certified products in the year prior to this RY,
   and if the purchases and/or generation listed on Worksheet 1 include
   generation that occurred during the last 6 months of that prior RY or during
   the first 3 months of the RY being reported, verify that this generation was
   not claimed for sales in that prior year by reviewing the Participant’s Green-e
   verification worksheets and attestations from that prior RY. Note any
   exceptions.
e. Examine the date of generation (which can be in terms of month/year) on the
   billing invoice or tracking system report and compare this to the generation
   date per the Worksheet 1. Report as an exception if the generation date is
   outside the range of eligibility for the RY being reported.
f.   Note any generators in Worksheet 1 that are located in New York state.
g. If any of the supply is located in Connecticut or Maine, note this in the report.
           i.   If the generator is located in Maine, note if the facility is selling
                electricity to a utility, and if so, the date that the contract with the
                utility was initiated and if the facility is a Qualifying Facility (QF)
                under the Federal Energy Regulatory Commission.
           ii. For facilities located in Connecticut and where only RECs were
               purchased by the Participant, note if a utility purchased the
               electricity along with the RECs, and if the facility is a QF.
h. For each purchase and/or amount of generation recorded on Worksheet 1,
   examine the relevant “Generator Attestation,” “Small Generator Attestation”
   or tracking system report. Note if the Participant is not named in these
   documents as the purchaser and/or generator of the renewable MWh.
i.   If the Participant is not named on the ““Generator Attestation” or tracking
     system report, then obtain from the Participant copies of the “Wholesale
     Attestation” signed by the entity named as the purchaser on the “Generator
     Attestation” or tracking system report. Confirm that the generator name, ID,
     fuel type, date facility was first operational, and period of delivery are
     consistent between the Green-e “Generator Attestation” or tracking system
     report and the “Wholesale Attestation.” Note any exceptions.
j.   Confirm that the “Wholesale Attestation” names the Participant as the
     purchaser of the RECs or renewable electricity. Note any exceptions.
k. If the Participant is not named on the “Wholesale Attestation”, then obtain
   from the Participant additional copies of the “Wholesale Attestation” such that
   each transaction in the contract path from generator through two or more
   wholesale providers to the Participant is documented with copies of the



                                                                                     Page 13
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


     “Wholesale Attestation” from each wholesale provider involved in the contract
     path. Confirm that the generator name, ID, fuel type, date facility was first
     operational, and period of delivery are consistent between the “Generator
     Attestation” and each “Wholesale Attestation.” Note any exceptions.
l.   Using the Sampling Guidelines in Section II, select a sample of purchases
     and/or generation from Worksheet 1 (when testing a sample of purchases
     and/or generation, it may be necessary to access information from the
     Participant that provides more detailed information on specific purchases
     and/or generation, e.g. a daily report). From the sample of purchases and/or
     generation, test and perform the following for each selected item:
           i.   Compare each selected item per Worksheet 1 to a copy of the
                billing invoice or tracking system report that contains information
                regarding renewable MWh purchased and/or generated, date of
                generation (the date of generation can be in terms of month/year),
                and fuel type. Note, it may be necessary to also examine a copy of
                the contract or other documents to test this information (specify in
                the accountant’s Agreed Upon Procedures Report if the contract or
                other documents were used). Note any exceptions.
           ii. If step III.2.l.i. immediately above did not produce information about
               fuel type, compare the generator’s name and location to the
               National Renewable Energy Laboratory REPIS database to
               determine fuel type. This database can be accessed at
               http://www.nrel.gov/analysis/repis/. Note any exceptions.
m. If the facility that generated the renewable MWh being claimed on Worksheet
   1 is owned by the Participant, compare the MWh recorded as “Purchased or
   Generated” in column 1G to meter readings made by an independent third-
   party (such as a scheduling coordinator or a meter data management agent)
   at the generation side of the busbar. Agree the generator name and location
   to a generator listing as noted in a.) above or to other documents such as the
   generator FERC registration or state operating permit that substantiates the
   name and type of generation facility. Note any exceptions. Obtain from the
   Participant a copy of the most recent meter certification and report the date
   of the certification in the accountants’ report.
           i.   Section III.2.m. immediately above is not necessary if the generator
                being tested is in a region with a renewable energy tracking system
                and there is a tracking system report substantiating the MWh
                purchased or generated.
n. If the Participant has claimed on Worksheet 1 purchases or generation of
   MWh from solar facilities, obtain a copy of the “Generator Attestation” or
   “Small Generator Attestation”, or tracking system report, and assure that the
   MWh claimed on Worksheet 1 match the MWh reported on the relevant
   attestation or tracking system report. If the Participant used estimated data
   on Worksheet 1 for solar MWh, obtain a copy of the Checklist for the RY



                                                                                     Page 14
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


    being reported, and review the section entitled “Notes.” This section should
    state whether CRS has approved the solar estimation method. Note if the
    solar estimation method is not approved on the “Green-e Process Audit
    Checklist” for the RY being reported.
o. If any entries in column 1L denote that a “Small Generator Attestation” was
   supplied for a generator on Worksheet 1, compare each “Small Generator
   Attestation” and the respective small generator’s entry in column 1G for the
   renewable MWh supplied to Participant:
           i.   If the generation supplied is broken down by quarter in column 1J,
                check that the corresponding attestation also records generation by
                quarter and check that the generation listed on the attestation and
                in Worksheet 1 match. Note any exceptions.
           ii. If the generation supplied is broken down by quarter in column 1J
               and the attestation does not record generation by quarter:
                     x If the generating facility’s “Date First Placed into Service” on
                       the attestation is on or before the middle of the first quarter
                       of the Reporting Year, check that the MWh listed per quarter
                       is equal to total annual generation on the attestation divided
                       by four. Note any exceptions.
                     x If the generating facility’s “Date First Placed into Service” on
                       the attestation is after the middle of the first quarter of the
                       Reporting Year, check that the MWh listed per quarter is
                       equal to total annual generation on the attestation divided by
                       the number of quarters of the RY for which the generator
                       was in operation. For example, if the generator was first
                       operational on May 3rd of the Reporting Year, the generator
                       should be listed in three rows of Worksheet 1 with quarters 2,
                       3 and 4 of the RY recorded in column 1J of each row,
                       respectively, and with one third of the annual generation
                       reported on the attestation recorded in column 1G. Note any
                       exceptions.
           iii. If the entry for generation from a small generator has “All” recorded
                in column 1J, follow the instructions in Section III.A.3.b.i., below.


3.   Verification of Eligible Renewables
a. Obtain a completed copy of Worksheet 2.
b. Referencing Worksheet 1, recalculate each row of columns 2C and 2D of
   and note as an exception if they do not total the same amount of MWh listed
   on Worksheet 1. Note any exceptions.
           i.   If “All” is recorded in column 1J of Worksheet 1 for generation from
                a small generator, check that all MWh from the small generator are


                                                                                     Page 15
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


                recorded only in column 2C and not in column 2D. Note any
                exceptions.
c.   If any renewable MWh are “Assigned or Sold in Non-Green-e Transactions”
     as recorded in Worksheet 2, Columns 2I and 2J, examine internal company
     documents to verify that the total MWh by resource listed in Columns 2I and
     2J were recorded in company records as assigned or sold outside of Green-e
     sales (which Includes assignment to a Renewable Energy Mandate or
     Renewable Portfolio Standard; self-consumed; consumed on site; non-
     Green-e certified wholesale sales; non-Green-e certified product sales;
     compliance markets; or part of other non-Green-e certified use or sales).
     Only MWh that were reported on Worksheet 1 and also assigned or sold
     outside of Green-e sales should be reported in columns 2I and 2J. Note any
     exceptions.
d. Test the mathematical accuracy of the “Total Sales this RY” Columns 2K, 2L
   and 2M of Worksheet 2. Note any exceptions.
e. Test the mathematical accuracy of the “Leftover MWh Eligible for Green-e
   Sales Next RY” Column 2M of Worksheet 2; see the formula in column 2M
   for guidance. Note any exceptions.


B.      Verification of Sales
The objectives of performing these procedures are to provide assurances relating
to the following:
    x The power sold was accurately measured and reported.


1.    Retail Sales (Residential and Non-residential)
a. Obtain a completed copy of Worksheet 3. Reference the Checklist for a list
   of the names and categories of the products that must be included in
   Worksheet 3, Table 3.1. Note if any products on the “Green-e Process Audit
   Checklist” are not included in Table 3.1.
b. Obtain copies of internal reporting documents from the Participant that were
   used to complete Table 3.1. They should contain the detail of monthly sales
   per customer for each product sold, differentiating between residential and
   non-residential customers (see Appendix B for a list of documents that
   Participants should supply to their Auditor). Recalculate the amount of MWh
   of sales by product for each customer class, residential and non-residential,
   from the internal sales reporting documents and agree this to the retail sales
   reported in Table 3.1. Note any exceptions.
c.   For products listed in Table 3.1 that are Block Products:
           i.   For each product divide the total MWh sold by the block size
                reported in Column 3C. Confirm that this result matches the Total



                                                                                     Page 16
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


                Blocks Sold in Participant’s internal sales records. Note any
                exceptions.
           ii. Verify that Block Size listed in 3C is 100 kWh or larger. Confirm
               accuracy of Block size by dividing number in 3I by Total Blocks
               Sold in Participant’s internal sales records. Note any exceptions.
d. For products listed in Table 3.1 that are Percent-of-Use Products:
           i.   For each product, verify the percent renewable listed in column 3C
                by comparing total renewables sold in the product in column 3I with
                total electricity sales for the product from Participant’s internal sales
                records. Note any exceptions.
e. Using the Sampling Guidelines in Section II, select a sample of customer
   sales transactions detailed in the internal company documents. Compare for
   each selected item (from the internal company documents) the MWh sold per
   customer to a copy of the billing statements and any other necessary records
   that contain the MWh retail sales by product by customer (specify in the
   report what, if any, other record was used). Note any exceptions. For each
   transaction, verify that the amount of renewables sold was equal to or greater
   than 100 kWh. Note any exceptions.
           i.   The number of customers reported on Table 3.1 does not have to
                be tested.
           ii. For Participants selling certified Green Pricing or Competitive
               Electricity products: if Participant does not have customer billing
               records for the full calendar year, then sample from the month(s) in
               the calendar year that are available, and note those months in the
               Auditor’s report. Note any exceptions.
f.   If Participant’s billing cycles do not correspond exactly with the calendar year,
     Participant may pro-rate the sales for the first and/or last billing cycle of the
     year. If sales are prorated, note this in the Auditor’s report and describe
     method used for prorating.
g. Test the mathematical accuracy of Table 3.1. The “MWhs Sold to
   Residential Customers” in Column 3G plus the “MWhs Sold to Non-
   residential Customers” in Column 3H should equal the “Total MWhs Sold at
   Retail” in Column 3I. Note any exceptions.
h. Test the mathematical accuracy of all copies of Table 3.2; Participant should
   have filled in separate copies of Table 3.2 for combined REC product sales
   and for combined electricity product sales. Agree total sales in the last
   column of Table 3.2 to the total of all REC or electricity product sales (as
   applicable to the version of Table 3.2 under review) listed in Column 3I. Note
   any exceptions.




                                                                                     Page 17
                                                                                            ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


2.     Wholesale Sales
This section applies to Participants that sold renewable MWh at wholesale.

a. Recalculate the MWh sold wholesale by fuel type and location per Table 3.3
   or the equivalent internal reporting documents with equivalent information
   (see description of document titles in Appendix B) and agree this to the MWh
   resold in Wholesale Sales by fuel type and generation date listing on
   Worksheet 2 in Columns 2E and 2F. Note any exceptions.
b. Using the Sampling Guidelines in Section II, select a sample of resales at
   wholesale from Table 3.3 or equivalent document for testing and perform the
   following for each selected item.
            i.   Compare each selected item per Table 3.3 or equivalent document
                 to a copy of the billing invoice (e.g. the bill sent to the provider’s
                 customer) that contains information regarding MWh resold at
                 wholesale, date of generation, location of generator, and fuel type
                 (the date of generation can be in terms of month/year). Note, it
                 may be necessary to also examine a copy of the contract or other
                 documents to test the information (specify in the Agreed-Upon
                 Procedures Report if the contract or other documents were used).
                 For Participants sourcing from a region that has a renewable
                 energy tracking system, a tracking system report can substitute for
                 the billing invoice if it substantiates MWh resold, date of generation,
                 location of generator and fuel type. Note any exceptions.


C.     Verification of Product Resource Mix
Verification of all products’ resource mixes, and, for retail residential products
only, Annual Product Content Label(s), is required. These products are listed on
the Checklist. The objectives of performing these procedures are to provide
assurances relating to the following:
   x The quantity and type of renewable electricity sold is accurately calculated
       and reported.

a. Obtain from the Participant a completed copy of Worksheet 4 for each retail
   product being tested. Agree the “Total MWh Sold at Retail,” Worksheet 3
   Table 3.1 Column 3I with the “Total Retail Sales” reported in (#1) of
   Worksheet 4 for each product. Note any exceptions.
b. For each retail residential product being tested, obtain from the Participant a
                                                                          9
   copy of the Annual Product Content Label for the RY being reported. For
   each product being tested, agree the percentages printed under the column

9
 Because of the time it takes for Participants to collect data on MWh delivered into the grid, the
Annual Product Content Label may have been distributed to customers during the year after the
RY to which the Product Content Label applies.


                                                                                           Page 18
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


   labeled “Actual Power Mix” of the Annual Product Content Label with the
   percentages reported in Worksheet 4 Table 4.1 Column 4C, “Fuel Mix
   Claimed in Product Content Label.” Note any differences that are greater
   than 1% (as rounded).
c. Test the mathematical accuracy of Columns 4D in Worksheet 4, by
   multiplying the percentage in Column 4C by the total product sales in (#1).
   Note any exceptions.


D.      Balance of Supply and Sales
The objectives of performing these procedures are to provide assurances relating
to the following:
    x The Participant purchased or generated enough renewable MWh to meet
        its customer sales.

a. Obtain completed copies of Worksheet 4 and Worksheet 5. Check that
   Worksheet 5, Table 5.1, Column 5C equals the sum of Columns 2C and 2D
   minus the sum of Columns 2I and 2J on Worksheet 2, Table 2.1. Note any
   exceptions.
b. Recalculate Worksheet 5, Table 5.1, Column 5D by adding Worksheet 4,
   Table 4.1, Column 4D for all retail and commercial products by fuel type.
   Note any exceptions.
c. Agree Worksheet 5, Table 5.1, Column 5E to Worksheet 3, Table 3.3,
   Column 3N, by fuel type and location. Note any exceptions.
d. Test the mathematical accuracy of Worksheet 5, Table 5.1, Column 5F by
   subtracting Columns 5D and 5E from Column 5C by fuel type and location.
   Recalculate the total for Column 5F and report as an exception if the
   “Difference between Supply and Sales by Fuel Type” is a negative number.
   Attach to the Agreed-Upon Procedures Report the Participant’s explanation
   for this difference.


E.     Verification of Notifications
For products supplied with RECs, obtain a completed copy of Worksheet 6 from
the Participant. Examine the generators listed on Worksheet 6 and which cases
(Cases 1-6) the Participant has indicated applies to each generator.

1.   Cases 1, 2, 4 and 5
a. For any generators listed on Worksheet 6 that indicate that Case 1, Case 2,
   Case 4 or Case 5 applies, collect from Participant the following documents:
           i.   Letter or other disclosure from utility(ies) listed in Column 6H
                addressed to the utility’s state regulatory authority (for example, the
                Public Utilities Commission).


                                                                                     Page 19
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


           ii. Letter or other disclosure from utility(ies) listed in Column 6H
               addressed to the state regulatory authority in the state in which the
               generation producing the RECs occurred, if different from the state
               in which the utility is operating.
           iii. Letter or other disclosure from utility(ies) listed in Column 6H
                addressed to the utility’s state environmental authority (for example,
                the state Department of Environment).
b. For each generator listed under Case 1, 2, 4 or 5, ensure the two letters
   described above are provided. If a single utility is associated with more than
   one generator, then there may be letters in i. and ii. that address multiple
   generators. In such cases, verify that the letters or disclosures specifically
   name each generator associated with the specific utility. Note any
   discrepancies. Attach all letters and disclosures to the accountant’s report.

2.   Case 3 and Case 6
a. For any generators listed on Worksheet 6 that indicate that Case 3 or Case 6
   applies, collect from Participant the following documents:
           i.   Letter or other disclosure from utility(ies) listed in Column 6H
                addressed to the utility’s state regulatory authority (for example, the
                Public Utilities Commission).
           ii. Letter or other disclosure from utility(ies) listed in Column 6H
               addressed to the state regulatory authority in the state in which the
               generation producing the RECs occurred, if different from the state
               in which the utility is operating.
           iii. Letter or other disclosure from utility(ies) listed in Column 6H
                addressed to the utility’s state environmental authority (for example,
                the state Department of Environment).
           iv. Letter or other disclosure from the generator in Column 6A to the
               utility listed on Column 6H.
b. If a single utility is associated with more than one generator, then there may
   be letters in i., ii. and iii. that address multiple generators. In such cases,
   verify that the letters or disclosures specifically name each generator
   associated with the specific utility. Note any discrepancies. Attach all letters
   and disclosures the accountant’s report.


F.      Non-Renewable Emissions
For Participants selling electricity products and that have made specific
purchases from fossil-fueled generating facilities (coal, natural gas, oil, or diesel)
verify that each of these purchases is listed on a completed copy Worksheet 7
provided by the Participant.




                                                                                     Page 20
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


     a. Obtain documentation (“Wholesale Attestation”, “Generator Attestation”,
        tracking system reports, and/or copies of reports from local or state air
        board, operating permits, emissions testing data, etc.) that indicate the
        emissions rate of the generator (lbs/MWh), and verify that these emission
        rates are accurately reported on Worksheet 7. Note any exceptions.
     b. Verify the mathematical accuracy of Worksheet 7, and note any
        discrepancies.
     c.   Compare the weighted average emissions rate for NOx, SO2, and CO2 on
          Worksheet 7, Table 7.2, to the emissions rates listed in Appendix D. Note
          as an exception any case in which the weighted average emission rate
          from purchases from the fossil-fueled facility(ies) exceeded the
          corresponding emission rate given in Appendix D.


G.      New Renewables
The section only applies if Participant is selling a competitive electricity product
that is partially supplied by renewables from a facility(ies) that was operational
prior to January 1, 1997 and if this product was Green-e certified prior to January
1, 2006.

The objectives of performing these procedures are to provide assurances relating
to the following.
    x The quantity and type of renewable electricity sold is accurately calculated
        and reported; and
     x    The Participant purchased and/or generated enough new and non-new
          renewable electricity to meet its customer demand for the product(s)
          containing any non-new renewables.
     x    Participant purchased and/or generated enough to meet the Green-e
          “new” requirement for the specific region.

a. Obtain a completed copy of Worksheet 8 for each Competitive Electricity
   product that used any non-new renewables toward its total renewables
   percentage.
b. Check that facilities and relevant information listed on Worksheet 8, Table
   8.1 agrees with that of the same facilities as listed on Worksheet 1, Table 1.1.
   Note any exceptions.
c.   Check the mathematical accuracy of Table 8.2, based on formulae listed in
     each column header of Table 8.2. Note any exceptions.
d. Check that “Percent New” meets or exceeds the minimum allowed by state
   as listed in the Table A below, and note any exceptions:




                                                                                     Page 21
                                                                                       ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


Table A: Minimum New Renewable Content for Certain Competitive Electricity Products,
by State

Connect-        Delaware        District of     Maine           Maryland        Massa-
icut                            Columbia                                        chusetts
25%             25%             25%             25%             25%             25%
Michigan        New             New York        Penn-           Rhode           Virginia
                Jersey                          sylvania        Island
50%             25%             25%             25%             25%             25%


H.     Sales of Green-e Certified Products by Distributors
Worksheet 9 applies only to Participants selling electricity products that are also
being sold through one or more distributors other than the Participant.

a. Obtain a completed copy of Worksheet 9.
b. Verify that the sales of each product in columns 9B through 9E match
   Participant’s internal records of product sales through each distribution utility.
   Note any exceptions.
c.   Verify that the totals of columns 9B through 9E match the totals for the
     corresponding product sales reported in Table 3.1. Note any exceptions.
d. Verify that the total of column 9F matches the total sales all of products listed
   on Worksheet 9 by comparing it to the sum of the same products’ total sales
   in Table 3.1. Note any exceptions.


I.    Substantiation of Marketing Claims and Non-Nuclear Purchases
a. Obtain from the Participant a copy of the “Green-e Attestation from
   Participant.” Attach this attestation to the final assurance report. Obtain from
   the Participant the Checklist for the RY being reported. Note any exceptions.
b. If there are items listed under “Marketing Claims that Need to Be Verified” in
   the Checklist, obtain documentation from the Participant that supports the
   listed marketing claims. Describe the documents examined, and note if the
   claims included in the Checklist are addressed in those documents. Attach
   copies of the documents to the Accountant’s Report. Note any exceptions.


J.     Cost-Based Rates
This section is for Utility Green Pricing Participants only.

a. Obtain a copy of documentation from the Participant that verifies that the
   Green-e certified Green Pricing products sold by the Participant are cost-
   based rates. Note any exceptions.


                                                                                      Page 22
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


           i.   If the product offering has been approved by the state public utilities
                commission or other state regulatory agency, a copy of the public
                utility commission document approving the rate is necessary and
                sufficient for this assurance.
           ii. If no public utility commission documentation is available, then
               examine other regulatory documents, such as filings submitted to
               the Federal Energy Regulatory Commission and other company
               documents to verify that the product was sold at rates determined
               in a manner similarly to the Participant’s other product offerings.


IV.    ACCOUNTANT’S QUALIFICATIONS
The accountant shall be a member in good standing with the American Institute
of Certified Public Accountants or a member in good standing and certified as an
Internal Auditor with the Institute of Internal Auditors (IIA).


V.     HOW TO GET HELP
Should assistance be required, Center for Resource Solutions staff are available
to answer questions. Questions relating to the verification may be directed to:
Alex Pennock at 415-561-2100 or alex@resource-solutions.org. To obtain
electronic copies of this document, along with attestations and worksheets, look
on our Web Page at http://www.green-e.org/verif_docs.html.




                                                                                     Page 23
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol




APPENDIX A:            GLOSSARY OF TERMS

Agreed-Upon Procedures Report: The report supplied to CRS prepared by the
Auditor detailing the results of the annual verification audit by performing the
procedures stipulated in the Annual Process Audit Protocol.
Biomass: Eligible biomass resources for Green-e certified products include:
landfill gas, digester gas, plant-based agricultural, vegetative and food
processing waste, bioenergy crops, clean urban waste wood, and mill residues.
There are some states that have exclusions to some of these biomass resources.
Busbar: In electric utility operations, a busbar is a conductor that serves as a
common connection for two or more circuits. It may be in the form of metal bars
or high tension cables.
Certificate: see Renewable Energy Certificate.
Customer: For the purposes of this assurance protocol, the customer is
identified as the party who has purchased a Green-e certified product from the
Participant.
Eligible Renewable Generator: Renewable generators who have legal
documentation verifying the name, address, capacity, fuel type and operational
date used and whose generation types fall within the Green-e definition of
renewable resources.
Eligible Renewable Resource: As defined by the Green-e Renewable Energy
Program National Standard. These include wind, solar photovoltaic, geothermal,
small and/or low-impact hydropower, and most types of biomass.
Geothermal: Natural heat and steam from within the earth that is captured to
generate electric power. Geothermal energy can also be used for space heating
or industrial steam.
Generator: The facility that physically generates the electricity.
Green-e Annual Verification Submission: The collected, completed and
audited documents required to be submitted annually to the Center for Resource
Solutions as part of certification. These documents include: The Agreed-Upon
Procedures Report, all completed Worksheets and all documents required by the
Checklist.
Green-e Renewable Energy Program National Standard: The governing
document for Green-e certification. It is available on the Green-e Web site at
http://www.green-e.org/getcert_re_obli_stan.shtml.
Green-e Renewable Energy Certification Program Annual Process Audit
Protocol: Provides instructions for the Auditor on the procedures to perform in
order to verify a Participant’s annual sales and supply of renewable energy
and/or RECs.


                                                                                     Page 24
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


Green-e Verification Cover Letter: A letter provided to each Participant at the
start of the verification process that provides an outline of requirements for
verification and relevant documents necessary to complete verification.
Hydroelectric: A technology that produces electricity from falling water that
turns a generator.
Kilowatt-hour (kWh): The most commonly-used unit of measure telling the
amount of electricity consumed over time. It means one kilowatt of electricity
supplied for one hour.
Megawatt-hour (MWh): One thousand kilowatt hours.
New Renewable: With the exception outlined in section III.G above, only new
renewable resources are eligible to participate in Green-e certified products. The
term “new” is defined to include any eligible renewable facility beginning
operation after January 1, 1997, or repowered after that date.
Participant: An entity offering for sale at least one Green-e certified REC or
electricity product to retail or wholesale customers.
POP Tags: Stands for “Point-of-Purchase” Tags. POP Tags or “mini tags” are
small quantities of renewable energy attributes sold at point-of-purchase to offset
the consumer's energy use and/or emissions from a particular activity.
Product: The renewable energy that a Participant offers to sell to consumers
under terms and conditions specific to an offer or to a tariff.
Renewable Energy Certificate (REC): For purposes of participating in Green-e,
eligible renewable generation may be characterized as having a commodity
electricity attribute and a renewable attribute, sometimes referred to as a
“greenness” attribute. Hence, for each MWh of eligible renewable energy
generated, a corresponding MWh of renewable attribute is generated. This
renewable attribute may be separately documented from the commodity
electricity through the use of a certificate or a “ticket”, which the generator may
then sell or broker separately from the commodity energy. For the purposes of
this report, one REC is equivalent to the renewable attributes from one MWh of
eligible renewable generation.
Renewable Energy Tracking System: A regional, software-based system in
place to issue RECs from the renewable generation located in its area, track
REC ownership transaction between parties, and record REC retirement.
Examples are NEGIS in New England, ERCOT in Texas or PJM-GATS in the
Mid-Atlantic.
Renewable MWh: A term used in this document to refer to RECs and/or
renewable electricity.
Renewable Portfolio Standard: A state or federal level policy that requires that
a minimum amount (usually a percentage) of electricity supply provided by each
supply company is to come from renewable energy.



                                                                                     Page 25
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


Renewable Power: Electricity generated from eligible biomass, wind, solar
thermal, photovoltaic, geothermal, and eligible hydroelectric resources. Also
called renewable resources, renewable supply, and renewable electricity.
Reporting Year: The reporting year is the period beginning January 1 in the
sales year being reported or the date the Participant began selling its Green-e
certified product, and ending on December 31 of that year.
Solar: Refers to sources that use solar radiation to produce electricity.
Photovoltaic technologies convert sunlight directly into electricity. Solar thermal
electric facilities use the heat of the sun to generate electricity.
Ticket: See Renewable Energy Certificate.
Vintage: The vintage of a renewable MWh is the date that the renewable
electric generation was measured by the system operator or utility meter at the
generator site. The vintage of a generator or generating facility is the date that
the facility was placed into service.
Wholesale Supplier: A company that sells renewable MWh to a Participant.
This company may be the renewable generator or may be a third party broker.
May also be called a wholesaler or wholesale marketer.
Wind: A renewable resource that uses wind to turn a turbine to generate
electricity.




                                                                                     Page 26
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol



APPENDIX B:            DESCRIPTION OF DOCUMENT TITLES AND
                       OTHER INFORMATION NEEDED BY THE
                       ACCOUNTANT

The following is a list of information that Participants need to provide to their
accountant and should be tailored to each particular engagement as reports and
information will vary.


a. Contract, billing statement or other third party documentation that contains
   information of MWh of renewables purchased and/or generated, date
   generated and generating facility.
b. Billing invoices to customers. Where the Participant has resold renewable
   MWh for resale, a copy of the contract and any other information necessary
   for the accountant.
c.   For any generating facilities owned by the party undergoing this verification,
     meter reading documentation made by a third party (i.e., scheduling
     coordinator or meter data management agent) supporting the generation
     amounts.
d. Product Content Label: The disclosure to customers of the annual mix of
   resources used to supply a Green-e certified product for the RY being
   reported.
e. Internal Reporting Documents that Indicate Sales by Month: A report
   from the Participant that contains the detail of sales per customer for each
   product sold and that was used to complete Worksheet 3. The accountant
   will need to have the data sorted by customer class, by product, and by
   customer location (state).
f.   Green-e Program Verification Worksheets: A series of worksheets to be
     filled in by the Participant with data from the supply for and sales of Green-e
     certified products that is verified by the Auditor.
           i.   “Green-e Accountant Worksheet 1: Detail of Purchases”: A
                report that contains the detail of annual purchases and/or
                generation (renewable MWh purchased and/or generated by
                quarter generated) used by Participants in their certified product(s).
                This report is used to complete Worksheet 2.
           ii. “Green-e Accountant Worksheet 2: Verification of Eligible
               Renewables”: This worksheet provides information about the
               renewable MWh purchases and/or generation that support products
               offered by Participants during the reporting year being reported.
               Worksheet 2 identifies the quantity of renewables purchased and/or



                                                                                     Page 27
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


               generated (and resold, if applicable) by resource type and location
               of generation.
           iii. “Green-e Accountant Worksheet 3: Verification of Green-e
                Certified Sales”: This worksheet provides information about how
                purchases and/or generation recorded on Worksheet 2 were
                allocated between the various renewable energy products offered
                by Participants to retail and wholesale customers.
           iv. “Green-e Accountant Worksheet 4: Verification of Product
               Content Label”: This worksheet converts the percentage of
               specific purchases and/or generation in the Product Content Label
               to MWh of each type renewable resource sold to customers in the
               form of renewable energy or RECs.
           v. “Green-e Accountant Worksheet 5: Balance of Supply and
              Demand”: This worksheet checks that actual supply of renewable
              energy claimed in certified products matches with product sales.
           vi. “Green-e Accountant Worksheet 6: Verification of
               Notifications”: This worksheet documents required notifications
               for Participants using RECs to supply their Green-e certified
               product(s) if the REC transactions involved a utility at any point.
           vii. “Green-e Accountant Worksheet 7: Verification of Emissions
                from Non-Green-e-Eligible Generation”: This worksheet
                calculates the weighted average emissions for electricity products
                for which specific purchases and/or generation of non-eligible
                resources took place, to ensure that they do no exceed the
                emissions limits in Appendix D.
           viii.“Green-e Accountant Worksheet 8: Verification of New
                Renewables”: This worksheet calculates the percent of new
                renewable MWh in a competitive electricity product in order to verify
                that new renewables meet or exceed the minimums listed by state
                in Section III.G.
           ix. “Green-e Accountant Worksheet 9: Sales of Green-e Certified
               Products by Distributors Other than Participant”: This
               worksheet applies to Participants selling one or more Green-e
               certified electricity product through two or more distributors, in order
               to report sales of the product(s) by distributor.
g. “Green-e Attestation from Program Participant” signed by the company
   for which the assurance protocol is being conducted. It is included as
   Appendix E of the Participant Instructions.
h. “Green-e Renewable Attestation(s) from Wholesale Provider of
   Electricity or RECs”: For renewable electricity or RECs purchased for
   products sold in the RY being reported, Participant will need one copy filled



                                                                                     Page 28
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


     out by each wholesaler from whom it purchased these renewables, and from
     each wholesaler that was part of the chain of ownership of these renewables
i.   “Green-e Renewable Generator Registration Form and Attestation(s)”:
     For renewable electricity or RECs purchased and/or generated for products
     sold in the RY being reported, Participant will need one copy filled out by
     each generator of renewable MWh that Participant purchased from, whether
     Participant purchased directly from the generator or through one or more
     wholesalers, unless the participant is purchasing a Green-e certified
     wholesale product or using tracking system reports to attest to purchase. If
     Participant owns the generation facility supplying renewable MWh for a
     Green-e certified product, Participant must complete and supply a copy of
     the “Generator Attestation” for those renewable MWh.
j.   “Green-e Attestation for Renewable Energy Certificates (RECs)
     Delivered From a Small Solar/Wind/Hydro Electric Power Facility”:
     Serves the same function as and is to be used in the same was as the
     “Generator Attestation” or renewable MWh purchases and/or generation
     from every wind, solar, and hydro generator with nameplate capacity
     under 10 kW.
k. “Tracking System Reports” in lieu of generator or wholesaler
   attestations if the reports contain information on the relevant generators
   and contain all the information requested by the above attestations.
l.   “Green-e Attestation of Non-Eligible Electricity Purchase and
     Emissions Reporting”: For each specific purchase and/or generation
     of MWh of non-eligible electricity used to supply a Green Pricing or
     Competitive Electricity product sold in the RY being reported,
     Participant will need one copy filled out by each generator from whom it
     purchased or which generated these MWh.
m. “Green-e Verification Checklist”: This document was provided by CRS to
   the Participant. It contains information regarding the products that are
   subject to this process audit, the worksheets that must be completed by the
   Participant, and any additional reporting requirements for the Participant.
   Participant should provide a copy to the Auditor.




                                                                                     Page 29
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol



APPENDIX C:            EXCERPT FROM AN EXAMPLE AGREED-UPON
                       PROCEDURES REPORT

Sample Report Excerpts Under Section AT600, Agreed-Upon Procedures
(Note that if the accountant is performing agreed-upon procedures under auditing
standards, the accountant should refer to Section AU622 for the proper reporting
excerpts.)
           Independent Accountant’s Report on Applying Agreed-Upon
           Procedures
           To the Board of Directors of
           XYZ Energy Incorporated
           and the Center for Resource Solutions

           We have performed the procedures enumerated below, which were
           agreed to by XYZ Energy Incorporated, solely to assist you with
           respect to complying with annual reporting requirements of the Center
           for Resource Solutions’ Green-e Renewable Energy Certification
           Program for the year ended December 31, 20XX. This agreed-upon
           procedures engagement was performed in accordance with standards
           established by the American Institute of Certified Public Accountants.
           The sufficiency of the procedures is solely the responsibility of the
           specified users of the report.

           Consequently, we make no representation regarding the sufficiency of
           the procedures described below either for the purpose for which this
           report has been requested or for any other purpose.

           [The accountant would include paragraphs to enumerate procedures
           performed, reports used and findings.] SEE THE FOLLOWING AS AN
           EXAMPLE:
           We obtained an internally generated report from XYZ Energy
           Incorporated that contained the detail of renewable energy purchases
           (MWh purchased, date generated and generating facility), “Worksheet
           1”, and is attached hereto as Exhibit 1. We performed the following
           procedures:
           a. Recalculated the MWh by generating facility and fuel type on the
              “Worksheet 1” without exception:
           b. Selected a sample of purchases, using a confidence level of 90%, a
              tolerable deviation of 10% and an expected deviation of 3%. This
              resulted in 95 purchase transactions being selected and the
              following tests were performed:




                                                                                     Page 30
                                                                                      ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol


               i.   Compared each selected purchase transaction to a copy of the
                    billing invoice noting that the MWh RECs purchased and date of
                    generation were in agreement.
               ii. For testing of the date of generation, all items selected from the
                   “Worksheet 1” agreed to the billing invoice without exception.
           We were not engaged to, and did not, perform an examination, the
           objective of which would be the expression of an opinion on the
           compliance of the annual reporting requirements of the Center for
           Resource Solutions’ Green-e Renewable Energy Certification
           Program. Accordingly, we do not express such an opinion. Had we
           performed additional procedures, other matters might have come to
           our attention that would have been reported to you.
           This report is intended solely for the use of the specified users listed
           above and should not be used by those who have not agreed to the
           procedures and taken responsibility for the sufficiency of the
           procedures for their purposes.

           [date and signature]


               Note: This is a partial example of an Agreed-Upon Procedures
             Assurance Report. This example does not complete all of the steps
                           required by the Green-e Process Audit.




                                                                                     Page 31
                                                                                        ENCLOSURE 3
Green-e Renewable Energy Certification Program Verification Process Audit Protocol



APPENDIX D:             MAXIMUM EMISSION RATES BY STATE

Use these emissions factors as directed by Section III.F above. All values are in
pounds per megawatt-hour (lbs/MWh).10

By Utility – For Green Pricing Products
                                    NOx                      SO2                     CO2
Alliant Energy                                 4.40                 7.52              1,965.79
Buckeye Power                                  5.13                16.54                 1,844
City of Palo Alto                              0.65                 0.17                633.06
Platte River                                   3.56                 0.86              2,474.40
Roseville                                      0.65                 0.17                633.06
Santee Cooper                                  1.96                 4.42                893.25
SMUD                                           0.07                 0.00                522.35
TVA                                            3.72                 9.37              1,428.43
We Energies                                    3.53                 7.21              1,727.38
Xcel Energy CO                                 3.65                 5.65              2,209.73
Xcel Energy MN                                 3.44                 6.89              1,905.35

By Region – For Competitive Electricity Products sold in more than one state
                                   NOx               SO2               CO2
New England ISO                           1.5              3.78           879.11
New York ISO                             1.46              4.13           978.48
PJM                                      2.47              7.65         1,097.55

By State – For Competitive Electricity Products sold in a single state
                                    NOx                SO2                           CO2
California                                0.56               0.17                       633.06
Connecticut                               1.36               2.24                       738.83
Delaware                                   3.5             13.06                      1,970.94
District of Columbia                      5.21             13.62                      2,656.96
Maine                                     1.43               2.12                       655.09
Maryland                                  3.49             10.09                      1,372.83
Massachusetts                             2.00               5.57                     1,293.15
Michigan                                  3.35               7.06                     1,564.73
New Jersey                                1.37               2.13                       732.55
New York                                  1.46               4.13                       979.68
Ohio                                      5.13             16.54                      1,844.00
Pennsylvania                              2.71               9.51                     1,234.10
Rhode Island                              0.53               0.19                     1,001.70
Virginia                                  2.58               5.83                     1,231.58



10
     Emissions rates from EPA eGRIDPC 2002,Version 2.01.


                                                                                       Page 32
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 4
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
ENCLOSURE 5
